                 AUDIT OF

  COMPLIANCE WITH STANDARDS GOVERNING

COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

     SAN FRANCISCO POLICE DEPARTMENT

        CRIMINALISTICS LABORATORY

        SAN FRANCISCO, CALIFORNIA




          U.S. Department of Justice

        Office of the Inspector General

                 Audit Division



         Audit Report GR-90-12-001

                January 2012

                      AUDIT OF

       COMPLIANCE WITH STANDARDS GOVERNING

     COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

          SAN FRANCISCO POLICE DEPARTMENT

             CRIMINALISTICS LABORATORY

             SAN FRANCISCO, CALIFORNIA


                            EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the San Francisco Police
Department Criminalistics Laboratory, San Francisco, California (SFPD
Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System is used at the state level to serve as a state’s DNA database
and contains DNA profiles from local laboratories and state offenders. The
Local DNA Index System is used by local laboratories.

       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
OIG Audit Objectives

      Our audit generally covered the period from January 2009 through
December 2010. The objectives of our audit were to determine if the:
(1) SFPD Laboratory was in compliance with the NDIS participation
requirements; (2) SFPD Laboratory was in compliance with the Quality
Assurance Standards (QAS) issued by the FBI; and (3) SFPD Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS.

       Our review determined the following:

       •	 The SFPD Laboratory was in compliance with NDIS participation
          requirements regarding updated training for Laboratory personnel,
          maintenance of training and qualification records, and timeliness of
          NDIS matches. However, the Laboratory was not in compliance
          with NDIS Security Requirements that state server back-ups must
          be transported off-site on a monthly basis.

       •	 The SFPD Laboratory was in compliance with the QAS regarding
          completion of periodic internal and external QAS reviews,
          implementation of corrective actions presented by internal and
          external reviews, and retention of evidence. However, the SFPD
          Laboratory was not in compliance with QAS that require access to
          the laboratory to be controlled and limited in a manner to prevent
          access by unauthorized personnel.

       •	 We reviewed 100 of the SFPD Laboratory’s 935 forensic profiles in
          NDIS as of December 22, 2010. Of the 100 forensic profiles
          sampled, we found that 93 profiles were complete, accurate, and
          allowable for inclusion in NDIS while 7 profiles were unallowable.
          Specifically, we identified: (1) two profiles that were not allowable
          for upload because they violated the FBI’s 4x4 rule; (2) three
          profiles that were not allowable because they were obtained from
          the suspect’s person or residence; (3) one profile from an item that
          was not connected to a crime; and (4) one profile that was deemed
          unallowable because it did not meet the Laboratory’s own minimum
          eligibility requirement of seven core loci for upload to CODIS. 2 The
          Laboratory agreed to remove all seven unallowable profiles from
          NDIS.


       2
          The “4x4 rule”, published by the FBI in September 2003, is a reference to Section
6.4.6 of the NDIS DNA Data Acceptance Standards, which states that forensic mixture DNA
profiles submitted to NDIS may have up to four alleles at a maximum of four core loci,
provided that the remaining nine core loci have no more than two alleles at each locus.


                                           - ii ­
      We made two recommendations to address the SFPD Laboratory’s
compliance with standards governing CODIS activities, which are discussed
in detail in the Findings and Recommendations section of the report. Our
audit objectives, scope, and methodology are detailed in Appendix I of the
report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with SFPD Laboratory officials
and have included their comments in the report as applicable. In addition,
we requested from the SFPD Laboratory and the FBI written responses to a
draft of our audit report. We received those responses and they are found in
Appendices III and IV, respectively.




                                   - iii ­
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

      Background ...................................................................................1

      OIG Audit Objectives ......................................................................1

      Legal Foundation for CODIS.............................................................2

      CODIS Structure ............................................................................2

      Laboratory Information ...................................................................6



FINDINGS AND RECOMMENDATIONS................................................ 7

I.	   Compliance with NDIS Participation Requirements..............................7

         Results of the OIG Audit .............................................................7

         Conclusion .............................................................................. 10

         Recommendation ..................................................................... 11

II.	 Compliance with Quality Assurance Standards ................................. 12

         Results of the OIG Audit ........................................................... 12

         Conclusion .............................................................................. 17

         Recommendation ..................................................................... 17

III. Suitability of Forensic DNA Profiles in CODIS Databases .................... 18

         Results of the OIG Audit ........................................................... 19

         Conclusion .............................................................................. 23


APPENDICES:

I.    OBJECTIVES, SCOPE, AND METHODOLOGY ............................... 24

II. AUDIT CRITERIA ...................................................................... 27

III. AUDITEE RESPONSE ..................................................................31

IV. DEPARTMENT OF JUSTICE RESPONSE........................................33

V.	 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

         OF ACTIONS NECESSARY TO CLOSE THE REPORT ..................34

                      AUDIT OF

       COMPLIANCE WITH STANDARDS GOVERNING

     COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

          SAN FRANCISCO POLICE DEPARTMENT

             CRIMINALISTICS LABORATORY

             SAN FRANCISCO, CALIFORNIA


                                 INTRODUCTION


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the San Francisco Police
Department Criminalistics Laboratory, San Francisco, California (SFPD
Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

      Our audit generally covered the period from January 2009 through
December 2010. The objectives of our audit were to determine if the:
(1) SFPD Laboratory was in compliance with the National DNA Index System
(NDIS) participation requirements; (2) SFPD Laboratory was in compliance
with the Quality Assurance Standards (QAS) issued by the FBI; and (3) SFPD
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS. Appendix I contains a detailed
description of our audit objectives, scope, and methodology; and
Appendix II contains the criteria used to conduct the audit.


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who is
allowed to have access to samples and analyses performed in connection
with the case in which the defendant is charged; or (4) if personally
identifiable information (PII) is removed for a population statistics database,
for identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing

      2
          42 U.S.C.A. § 14132 (2006).


                                        -2­
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory­
to-laboratory contacts. NDIS contains the following eight searchable
indices:




                                              -3­
       •	   Convicted Offender Index contains profiles generated from persons
            convicted of qualifying offenses. 3

       •	   Arrestee Index is comprised of profiles developed from persons who
            have been arrested, indicted, or charged in an information with a
            crime.

       •	   Legal Index consists of profiles that are produced from DNA
            samples collected from persons under other applicable legal
            authorities. 4

       •	   Detainee Index contains profiles from non-U.S. persons detained
            under the authority of the U.S. and required by law to provide a
            DNA sample for analysis and entry into NDIS.

       •	   Forensic Index profiles originate from, and are associated with,
            evidence found at crime scenes.

       •	   Missing Person Index contains known DNA profiles of missing
            persons and deduced missing persons.

       •	   Unidentified Human (Remains) Index holds profiles from
            unidentified living individuals and the remains of unidentified
            deceased individuals. 5

       •	   Relatives of Missing Person Index is comprised of DNA profiles
            generated from the biological relatives of individuals reported
            missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes and
(2) identify missing and unidentified persons.

      The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the

       3
          The phrase “qualifying offenses” refers to local, state, or federal crimes that
require a person to provide a DNA sample in accordance with applicable laws.
       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.
       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.


                                             -4­
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quantity of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and




                                     -5­
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The SFPD Laboratory serves the City and County of San Francisco,
California, which has a population of approximately 800,000. In addition, it
provides services to the United States Park Police, which has law
enforcement responsibilities within select areas of San Francisco. 7 The SFPD
Laboratory participates in the CODIS program as an LDIS Laboratory. In
2000, the SFPD Laboratory began analyzing DNA as a means of processing
evidence in criminal cases and in 2003 it began uploading forensic profiles
into NDIS.

      The SFPD Laboratory was first accredited by the American Society of
Crime Laboratory Directors/Laboratory Accreditation Board (ASCLD/LAB) in
2005 and was reaccredited in February 2010 for a period of 5 years. In
August 2010, the SFPD Laboratory began utilizing the services of an outside
laboratory, the Serological Research Institute, to analyze some of the SFPD
Laboratory’s DNA samples from less violent cases in order to reduce its
backlog.




       6
           A “locus” is a specific location on a chromosome. The plural form of locus is loci.
       7
          The United States Park Police has law enforcement responsibilities in areas
controlled by the U.S. Department of the Interior, National Park Services and that are
located within the City and County of San Francisco. This includes the Golden Gate National
Recreation Area and such areas as the Presidio, the Aquatic Park Historic District, Ocean
Beach, and many other parks and monuments. The SFPD Laboratory estimates that it
performs DNA analysis on 5 to 8 cases each year for the United States Park Police.


                                              -6­
               FINDINGS AND RECOMMENDATIONS

      I.   Compliance with NDIS Participation Requirements

           The SFPD Laboratory was in compliance with NDIS
           participation requirements regarding updated training
           for Laboratory personnel, maintenance of training and
           qualification records for CODIS users, and timeliness
           of NDIS matches. We found that the SFPD Laboratory
           did not transfer back-ups of the CODIS server off-site
           on a monthly basis.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the SFPD
Laboratory and the FBI. The NDIS Procedure Manual is comprised of the
NDIS operational procedures and provides detailed instructions for
laboratories to follow when performing certain procedures pertinent to NDIS.
The NDIS participation requirements we reviewed are included in
Appendix II of this report.

Results of the OIG Audit

       We found that the SFPD Laboratory did not comply with the NDIS
participation requirements because it did not back up its CODIS server on a
weekly basis and transport backed up CODIS data to an off-site location on a
monthly basis. We describe this in more detail below.

Server Back-Ups

      The NDIS Security Requirements state that laboratories participating
in NDIS are responsible for backing up local CODIS data on at least a weekly
basis. Further, the same laboratories must store CODIS back-up media at a
secure, off-site location on at least a monthly basis. We found that the SFPD
Laboratory did not back up its CODIS data in full accordance with NDIS
requirements. The SFPD Laboratory’s CODIS Administrator explained that
since 2003, the SFPD Laboratory had been backing up its CODIS data and
storing it at an off-site facility on a quarterly basis. SFPD Laboratory officials
considered this process to be acceptable because the Laboratory was also
uploading its forensic profiles to California’s SDIS laboratory on a weekly
basis and SFPD Laboratory officials regarded the weekly uploads as being
similar to locally backing up its CODIS data.



                                      -7­
       The SFPD Laboratory deviated from the NDIS Security Requirements
regarding its CODIS back-up procedures. First, information provided to us
during our site work at the Laboratory indicated it was not backing up its
CODIS data every week as required. 8 Second, it was not storing its CODIS
database back-ups at an off-site location on a monthly basis as required.
These deviations are a concern, especially based upon our observation that
personnel that are not part of the DNA Analysis Unit were able to have
physical access to the CODIS server. Further, SFPD’s reliance on its weekly
upload to the California SDIS laboratory cannot be considered proper data
management practice because it shifts responsibility for properly backing up
local CODIS data from the SFPD to another laboratory. We believe that
these deficiencies pose a significant risk in that the SFPD Laboratory’s
CODIS server will not be reloaded with the most up-to-date data in the
event of a natural disaster, accidental error, system crash, or any type of
physical tampering or disturbance. Therefore, we recommend that the FBI
work with the SFPD Laboratory to establish procedures that would ensure
that the SFPD’s CODIS server is backed up at least once a week and that
back-ups are stored off-site on at least a monthly basis.

       Besides this issue stated above, we had no other significant concerns
related to the SFPD Laboratory’s compliance with the other NDIS
participation requirements we reviewed. The results of our audit are
described in more detail below:

      •	 The NDIS General Responsibilities Operational Procedures manual
         requires that participating laboratories ensure that CODIS users are
         notified of and provided access to revised NDIS Operational
         Procedures and other documentation necessary to properly
         participate in NDIS. The SFPD Laboratory’s CODIS Administrator
         stated that the Laboratory provides its personnel with copies of the
         NDIS procedure manual, in addition to its availability on the FBI’s
         Criminal Justice Information System—Wide Area Network. The
         SFPD Laboratory’s CODIS Administrator stated that she also
         provides verbal guidance and informational updates to CODIS users
         at the SFPD Laboratory when needed. Finally, we selected two of
         the six CODIS users to interview and determined that both users
         understood NDIS procedures and could access the procedures if
         needed.



      8
          The SFPD’s response to our draft audit report stated that the SFPD Laboratory’s
procedures for backing up its CODIS server and related data included performing back-ups
on a daily basis using a software program. We are working with the SFPD Laboratory and
the FBI to confirm this information.


                                          -8­
•	 The NDIS Security Requirements state that the CODIS server and
   equipment and hardware shall be electronically safeguarded from
   unauthorized use and be only accessible to a limited number of
   approved personnel. We found that only a limited number of
   CODIS users within the SFPD Laboratory have access to CODIS
   through the FBI’s Criminal Justice Information System—Wide Area
   Network. This access is further limited to one computer
   workstation. We observed that all SFPD Laboratory CODIS users
   have their own CODIS accounts, unique passwords, and must
   undergo annual CODIS training. Moreover, the SFPD Laboratory’s
   in-house policy limits access to the CODIS database to only the
   CODIS Administrator and her alternate. Other SFPD CODIS users
   utilize the single computer workstation that has access to CODIS in
   order to participate in annual online CODIS training.

•	 The NDIS Security Requirements state that only authorized
   personnel shall have physical access to the CODIS server, and that
   maintaining the server in a separate room of the laboratory or in
   another locked space or cabinet is not required provided access to
   the CODIS server is controlled in accordance with the requirements
   of this procedure. We learned that the CODIS server has been
   stored in a limited-entry unit of the SFPD Laboratory space since
   2003. Access to this unit is currently limited to seven laboratory
   personnel and staff who hold supervisory positions within the
   Laboratory. We observed the location and accessibility of the
   CODIS server and found it to be in compliance with NDIS Security
   Requirements.

•	 SFPD Laboratory CODIS users are required to complete annual DNA
   Records Acceptance training. The FBI provided to us a list of SFPD
   Laboratory personnel who had received this mandatory annual
   training, which we compared to a list provided by the Laboratory.
   We found that all authorized personnel have successfully completed
   the annual training.

•	 For each CODIS user, the FBI requires that a participating
   laboratory submit fingerprint cards, background information, CODIS
   user information, and other appropriate documentation to the FBI.
   We verified that all necessary documents were provided to the FBI
   for all six SFPD Laboratory CODIS users.

•	 At the time of our audit, the NDIS General Responsibilities
   Operational Procedures manual required participating laboratories
   to maintain records of CODIS users, including reports concerning


                              -9­
        proficiency testing, and any other reports or audits required by the
        FBI, for a period of 10 years. We determined that SFPD Laboratory
        maintained personnel files for its CODIS users indefinitely, which is
        in accordance with its in-house policy requirement and in
        compliance with the 10-year retention requirement that was in the
        NDIS Operational Procedures.

     •	 The NDIS Interstate Candidate Match Operational Procedures
        defines procedures for participating laboratories to follow when
        confirming matches that are identified in the CODIS system. We
        reviewed a sample of five NDIS matches and determined that each
        match was generally confirmed and, when applicable, investigators
        were notified in a timely manner. Specifically, we found:

        o	 The SFPD Laboratory sent confirmation requests in a timely
           manner for all five matches;

        o	 Confirmation generally took place within 30 days after the SFPD
           Laboratory’s request was sent out for four of the five matches.
           For the one late match confirmation, the process took 66 days
           because another laboratory did not confirm the match submitted
           by the SFPD Laboratory in a timely manner;

        o	 The SFPD Laboratory notified investigators of match confirmation
           in a timely manner for all five matches.

     •	 The NDIS operational procedure entitled Review of External Audits
        requires that an external quality assurance review be forwarded to
        the FBI’s NDIS Custodian within 30 days of the participating
        laboratory’s receipt of the report. We reviewed the submission of
        the most recent external review and found that the report was
        submitted to the FBI’s NDIS Custodian in a timely manner.

Conclusion

     We found that the SFPD Laboratory did not store CODIS server
back-ups at an off-site location, other than the NDIS Participating
Laboratory, on a monthly basis.




                                   - 10 ­
Recommendation

    We recommend that the FBI:

    1.	 Work with the SFPD Laboratory to establish procedures to ensure
        back-ups of its CODIS server are performed at least once a week
        and those back-ups are maintained at an off-site location at least
        on a monthly basis.




                                 - 11 ­
       II. Compliance with Quality Assurance Standards

            We found that the SFPD Laboratory complied with the
            QAS issued by the FBI regarding the performance of
            QAS reviews within designated timeframes, and the
            proper monitoring of its subcontractors to ensure data
            integrity. 9 However, we also found that security at
            the SFPD Laboratory did not fully meet Forensic QAS
            that outline personnel access to the DNA Analysis
            Unit.

       During our audit, we considered the Forensic QAS issued by the FBI. 10
These standards describe the quality assurance requirements that the SFPD
Laboratory was required to adhere to in order to ensure its data met quality
and integrity standards. We also assessed the two most recent QAS reviews
that were conducted of the SFPD Laboratory. The QAS we reviewed are
listed in Appendix II.

Results of the OIG Audit

      We noted one exception to the SFPD Laboratory’s compliance with
Forensic QAS. Specifically, we found that the SFPD Laboratory did not
adhere to the Forensic QAS that requires access to the laboratory to be
controlled and limited in a manner to prevent access by unauthorized
personnel. The results of our audit are described in more detail below.

Controlled and Limited Access to the Laboratory

       During our audit, we observed the SFPD Laboratory’s security
measures for limiting entry and access into its facility, and more specifically
into its DNA Analysis Unit, to only include authorized personnel. We
identified security measures, such as key locks and combination touch pads,
which the SFPD Laboratory has in place to secure access to its building from
the outside. The SFPD Laboratory staff members told us that the interior

       9
          The QAS requires that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.
       10
          Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.


                                          - 12 ­
doors within the SFPD Laboratory leading into the DNA Analysis Unit were
accessible to all laboratory personnel and were not limited to just the staff
members that were assigned to the DNA Analysis Unit.

       We observed that the door between the Firearms Unit and the DNA
Analysis Unit was propped open, along with another open door from the
Firearms Unit to an unlocked corridor within the SFPD Laboratory. 11 This
corridor led to the front lobby of the building, to the garage that housed the
San Francisco Police Department (SFPD) vehicle fleet, and one of the SFPD
Laboratory’s secure evidence areas. We observed Laboratory staff working
in the Firearms and DNA Analysis Units while these doors were propped
open. SFPD Laboratory management explained that the series of open doors
was an infrequent occurrence and that the doors were kept open in an
attempt to equalize the temperatures between the spaces occupied by the
Firearms Unit and DNA Analysis Unit. However, we are concerned that
visitors or personnel with limited access to the SFPD Laboratory’s facilities or
garage area could gain unauthorized access to the DNA Analysis Unit
through propped open doors and the unlocked corridor. This vulnerability is
compounded in those instances where there may not be SFPD Laboratory
staff present to prevent unauthorized personnel from entering the secured
DNA Analysis Unit.

       Further, we learned that other SFPD units, not related to the SFPD
Laboratory, periodically use space within the SFPD Laboratory for law
enforcement training courses attended by non-Laboratory personnel. The
SFPD Laboratory’s Quality Assurance Manager did not feel these trainings
were a security concern for the SFPD Laboratory and explained that the foot
traffic within the Laboratory is monitored and that attendees are escorted
upstairs and through other areas of the building. However, we believe that
the presence of regular visitors in the facility increases the risk of
unauthorized access to the DNA Analysis Unit, and thereby underscores the
need to maintain adequate security of the Laboratory. We do not believe
that SFPD Laboratory is in compliance with the Forensic QAS that states that

       11
           According to the September 2010 ASCLD/LAB Interim Inspection Report,
ASCLD/LAB inspectors visited the SFPD Laboratory in August 2010 to investigate concerns
about the Laboratory, including allegations of possible unrestricted access that were raised
in an anonymous letter. According to the report the SFPD Quality Assurance Manager
stated that prior to November 2009 she observed doors to the building and Laboratory
secure areas being propped open, but that this practice stopped after the SFPD Laboratory
installed a proximity card access system. The September 2010 report concluded that the
ASCLD/LAB inspectors did not observe any doors being propped open and that the SFPD
Laboratory was meeting ASCLD/LAB’s security requirements.

       ASCLD/LAB, Interim Inspection Report San Francisco Police Department
Criminalistics Laboratory (September 2010), 1-3.


                                           - 13 ­
access should be controlled and limited in a manner to prevent access by
unauthorized personnel. We recommend that the FBI work with the SFPD
Laboratory to enhance security for the DNA Laboratory.

      We found that the SFPD Laboratory complied with the other NDIS QAS
that we reviewed, as described below:

     •	 The QAS requires laboratories to undergo an annual review,
        including an external review every 2 years. As of January 2011, we
        found that the SFPD Laboratory had external QAS reviews
        performed in November 2009 and April 2010, and an internal QAS
        review in December 2010.

     •	 We reviewed the prior 2 years of QAS review reports for the SFPD
        Laboratory. Both the internal and external reviews were conducted
        using the FBI’s QAS Review Document. The FBI confirmed that at
        least one of the QAS reviewers for both reviews had successfully
        completed the FBI QAS Review training course.

        o	 The two external reviews we examined identified four findings,
           two of which were overturned by the NDIS Audit Review Panel.
           The remaining two findings reported that: (1) the SFPD
           Laboratory failed to provide its preceding review report to the
           FBI within the required 30 days; and (2) the SFPD Laboratory
           uploaded different alleles than those listed by the DNA analyst
           on the CODIS upload form without concurrence of the DNA
           analyst. We reviewed the SFPD Laboratory’s corrective actions
           and determined that it had taken appropriate action to remedy
           these errors including the establishment of a new policy within
           its DNA Quality Assurance Manual to provide external audit
           documentation and laboratory responses to the FBI within 30
           days of receiving the audit documentation or report. In addition,
           the SFPD Laboratory clarified its procedure to verify criteria for
           DNA profiles through two concordant assessments that are to be
           prepared by qualified analysts or technical reviewers.

        o	 The internal QAS review did not identify any findings of non­
           compliance.

     •	 We asked each of the QAS reviewers who conducted the most
        recent external QAS reviews to certify that they had no
        impairments to independence. All QAS reviewers provided us with
        this certification.



                                  - 14 ­
•	 We reviewed the SFPD Laboratory’s policies on physical security of
   the facility as well as the access key card assignments for the
   secured areas of the Laboratory. We also toured the SFPD
   Laboratory and observed that the facility remains locked and closed
   to the public at all times; authorized SFPD Laboratory personnel
   enter using a key or numerical touch pad. We observed that the
   facility is protected during after-hours by motion detectors and an
   alarm system. While we noted internal security concerns pertaining
   to the DNA Analysis Unit that are mentioned above, we found that
   overall external security at the SFPD Laboratory is adequate and in
   compliance with the QAS requirements we tested.

•	 The QAS requires laboratories to perform evidence examination,
   DNA extraction, and polymerase chain reaction (PCR) setup
   processes at separate times or in separated spaces. We reviewed
   the policies and procedures that the SFPD Laboratory implements
   regarding the separation of known and unknown DNA samples in
   accordance with the QAS requirements. According to the SFPD
   Laboratory’s Quality Control Manual standard, evidence samples
   should be separated by time or space. We did not identify any
   material deficiencies with regard to the SFPD Laboratory’s
   separation of known and unknown DNA samples, which are
   processed at separate times.

•	 The integrity of physical evidence is maintained by the Laboratory
   in accordance with the QAS requirements that we tested. Sample
   evidence is placed in containers that are labeled with the SFPD
   Laboratory’s incident number and the SFPD Property Record Item
   number. Each DNA Analyst who takes custody of the evidence will
   mark the outer container with their initials and date. Specifically,
   we reviewed the SFPD Laboratory’s policy for retaining samples and
   found that the SFPD Laboratory retains sample extracts indefinitely
   and stores these sample extracts in the DNA Analysis Unit. In the
   DNA Analysis Unit, we observed that sample extracts are
   maintained in refrigerators unlocked during business hours and
   locked after-hours. SFPD Laboratory officials confirmed this
   practice. The extracts and evidence samples are formally
   transferred from the DNA Analysis Unit and held long-term in the
   SFPD’s Property Control Division. We viewed evidence of transfer
   paperwork and Property Control Division evidence control and
   release policies and determined that they were clear, detailed, and
   adequate to ensure evidence is properly handled and transferred to
   the Property Control Division.



                             - 15 ­
       •	 We found that since July 2010, the SFPD Laboratory has contracted
          with a vendor laboratory, Serological Research Institute, to
          outsource some of its forensic analysis work. We reviewed the
          Serological Research Institute’s most recent accreditation obtained
          in December 2009, its QAS audit documentation from September
          2009, and the contract that the SFPD Laboratory holds with the
          Serological Research Institute. Between July 2010 and April 2011,
          the SFPD Laboratory outsourced approximately 250 cases. 12
          During our site visit, we learned that in December 2010, the SFPD
          Laboratory had temporarily stopped outsourcing samples to the
          Serological Research Institute because of possible contamination
          issues identified by the SFPD Laboratory. However, after reviewing
          the results from a contamination study completed in January 2011
          the Laboratory has since resumed outsourcing casework to the
          Serological Research Institute.

       •	 We reviewed the SFPD Laboratory’s procedures for verifying vendor
          casework and found that a technical review is performed and
          documented for all outsourced samples eligible for upload into
          CODIS. The SFPD Laboratory’s technical review procedure for
          vendor casework is identical to that of in-house casework and is in
          accordance with the QAS requirements. 13 As of March 2011, all
          cases outsourced to the Serological Research Institute that were
          deemed eligible for CODIS upload by the vendor laboratory had
          successfully passed the SFPD Laboratory’s technical review process.

       •	 We reviewed the documentation of SFPD Laboratory’s site visit to
          Serological Research Institute and verified that the Laboratory
          conducted a site visit of the facility in July 2010, prior to entering
          into a contract with the Serological Research Institute. During that
          site visit, the SFPD Laboratory found no issues with the Serological
          Research Institute’s operations.




       12
            As of April 2011, the SFPD had uploaded 21 outsourced cases into NDIS.
       13
           FBI QAS 17.5.1 states that technical review shall include the following elements:
(1) a review of all DNA types to verify that they are supported by the raw or analyzed data
(electropherograms or images); (2) a review of all associated controls, internal lane
standards, and allelic ladders to verify that the expected results were obtained; (3) a review
of the final report (if provided by vendor laboratory) to verify that the results and
conclusions are supported by the data; and (4) verification of the DNA types, eligibility, and
the correct specimen category for entry into CODIS.


                                           - 16 ­
Conclusion

       We found that the SFPD Laboratory complied with the FBI’s Forensic
QAS that we tested, with one exception. During our visit to the Laboratory,
we observed multiple sets of doors propped open that led from the main
lobby, through an unlocked corridor, and ultimately to the DNA Analysis
Unit. Based on this observation, the SFPD Laboratory did not fully comply
with FBI’s Forensic QAS that requires access to the laboratory to be
controlled and limited. Although the SFPD Laboratory has a policy in place
regarding physical security controls for limiting unauthorized access into the
unit, the SFPD Laboratory needs to strengthen its adherence to that policy
and ensure it is consistently followed by all staff so that access to the DNA
Analysis Unit remains secure and limited to SFPD Laboratory personnel who
are authorized to have access to that unit.

Recommendation

      We recommend that the FBI:

      2.	 Work with the SFPD Laboratory to enhance its security procedures
          for preventing access to the DNA Laboratory by unauthorized
          personnel.




                                    - 17 ­
       III. Suitability of Forensic DNA Profiles in CODIS Databases

                We found that 7 of the 100 profiles we reviewed did
                not meet NDIS or SFPD Laboratory’s suitability
                standards. The SFPD Laboratory removed all seven
                profiles from NDIS. Specifically, we found: (1) two
                profiles violated the 4x4 rule; (2) three profiles were
                obtained from the suspect’s person or residence,
                (3) one profile was developed from evidence not
                connected to a crime; and (4) one profile did not
                meet the SFPD Laboratory’s own minimum
                requirement of seven core loci for uploading to
                CODIS. 14

       We reviewed a sample of the SFPD Laboratory’s forensic DNA profiles
to determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 15 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis. 16 Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected is


       14
           The “4x4 rule”, published by the FBI in September 2003, is a reference to Section
6.4.6 of the NDIS DNA Data Acceptance Standards, which states that forensic mixture DNA
profiles submitted to NDIS may have up to 4 alleles at a maximum of 4 core loci, provided
that the remaining 9 core loci have no more than 2 alleles at each locus.
       15
           When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample
is taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
       16
            A “locus” is a specific location on a chromosome. The plural form of locus is loci.


                                             - 18 ­
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

      We selected a sample of 100 profiles out of the 935 forensic profiles
that the SFPD Laboratory had uploaded into NDIS as of December 22, 2010.
Of the 100 forensic profiles sampled, we found that 7 profiles were
unallowable for upload to NDIS. The remaining profiles sampled were
complete, accurate, and allowable for inclusion in NDIS. The specific
exceptions are explained in more detail below.

Profile Allowability

      Based on our review, we found 7 of the 100 profiles in our sample did
not meet NDIS requirements and were unallowable for upload into the NDIS
database. The remaining 93 profiles were complete, accurate, and allowable
for NDIS upload. Our review examined each profile in the sample to
determine its suitability based on NDIS guidelines such as: (1) whether a
crime was committed; (2) whether the profile was obtained from the crime
scene; and (3) whether the profile was attributable to a putative
perpetrator.

       Specifically, we identified the following seven profiles not suitable for
CODIS: (1) two profiles were not allowable for upload because they violated
the 4x4 rule; (2) three profiles were not allowable because they were
obtained from the suspect’s person or residence; (3) one profile was
obtained from an item that was not connected to a crime; and (4) one
profile did not meet the Laboratory’s minimum requirement of seven core
loci for upload to CODIS. The results of our review are further explained
below:

OIG Sample Number CA-20

     Sample CA-20 was taken from the suspect’s clothing. This clothing
was retrieved from the suspect 1 week after the homicide was committed.
We deemed this profile to be unallowable because it is considered a deduced
suspect profile rather than a forensic unknown profile, and it was not




                                    - 19 ­
retrieved from the crime scene. 17 We presented this to the SFPD Laboratory
CODIS Administrator, who agreed that this profile was unallowable and
removed it from CODIS.

OIG Sample Number CA-37

      Sample CA-37 was taken from a swab of a gun grip retrieved during a
police chase of the suspects. There were six core loci uploaded into CODIS
because according to the case file documentation, alleles at three core loci
could not be detected. We presented this to the CODIS Administrator, who
stated that there was not enough DNA to test 13 core loci. The SFPD
Laboratory’s requirement is to test the profile on at least nine core loci and
upload a minimum of seven to SDIS; therefore, the SFPD Laboratory did not
adhere to its own minimum loci requirement when it uploaded this case.
The CODIS Administrator determined that the profile was not suitable and
removed it from CODIS.

OIG Sample Number CA-44

       Sample CA-44 was taken from a cigarette butt found in a trash can in
connection with a death investigation. However, the information in the case
file was not sufficient to connect the cigarette butt to a putative perpetrator.
In addition, as of January 2011, the cause of the victim’s death was listed as
undetermined and could not definitively be ruled as a homicide, even though
the case file stated there were suspicious circumstances surrounding the
victim’s death. As a result, we determined that this profile was unallowable.
We presented this to the CODIS Administrator who agreed with our
determinations and removed the profile from CODIS.

OIG Sample Number CA-45

      Sample CA-45 was taken from a stain on bedding in a room where a
rape had occurred. The victim was raped by five males at the apartment
where several of the suspects resided. We deemed this profile to be
unallowable because the suspects of the crime also resided at the
apartment, and we could not be sure that this particular forensic mixture
was attributed to the crime. We reviewed the DNA analysis results for the
non-sperm fraction of the mixture and found that it did not match the
victim's standard; therefore, it appeared that this stain may have come from
an unrelated sexual act that did not involve the victim. We presented this to

      17
          FBI introduced guidance to exclude deduced suspect profiles from NDIS in 2006.
To be classified as a forensic unknown record, the DNA sample must be attributed to the
putative perpetrator. Items taken directly from the suspect are considered deduced suspect
samples, not forensic unknowns, and are not eligible for upload to NDIS.


                                         - 20 ­
the CODIS Administrator, who agreed that this profile was unallowable and
removed it from CODIS.

OIG Sample Number CA-50

      Sample CA-50 was taken from a condom found in the male victim's
apartment where a rape occurred. We determined that the sample was
unallowable because it violated the FBI’s 4x4 rule and was uploaded to
CODIS in February 2005, after the 4x4 rule was established. The profile
presented three alleles at six loci and two alleles at each of the remaining
three loci. We presented this to the CODIS Administrator, who agreed that
the profile was unallowable and removed it from CODIS.

OIG Sample Number CA-74

      We determined that sample CA-74 was unallowable because it violated
the FBI’s 4x4 rule and was uploaded to CODIS in September 2004, after the
4x4 rule was established. The profile was a mixture of two suspects and
presented four alleles at four core loci and three alleles at each of the
remaining six core loci. We presented this to the CODIS Administrator, who
agreed that the profile was unallowable and removed it from CODIS.

OIG Sample Number CA-96

       Sample CA-96 was taken from a genital swab of the suspect. We
deemed this profile to be unallowable because it is not a forensic unknown
profile, but rather a deduced suspect profile. We presented this to the
CODIS Administrator, who agreed that the profile was unallowable and
removed it from CODIS.

Other Matters

       As a result of our audit, we found that the SFPD Laboratory does not
always attempt to obtain results for all 13 core loci. Specifically, for 55 of
the 100 profiles we reviewed, the Laboratory analyzed the profile using the
Profiler Plus® PCR Amplification Kit, which produces results for only 9 of the
13 core loci. 18 NDIS guidelines for CODIS index search parameters set the
minimum number of loci required to report a match at 10 core loci, which
essentially precludes profiles with less than 10 core loci from being searched
at NDIS and providing investigative leads to other states.


       18
           Of the 55 total profiles that were analyzed on Profiler Plus and produced results at
9 core loci, we determined 6 profiles to be unallowable during the course of our review.


                                           - 21 ­
      When we inquired about this issue, the CODIS Administrator stated
that the Profiler Plus® PCR Amplification Kit was attempted only when one of
the following situations arose:

       1.	 there was insufficient DNA to conduct the testing on all 13 core
           loci;

       2.	 analysis was performed prior to December 2002 when the SFPD
           Laboratory validated the COfiler® PCR Amplification kit, which
           provides results for the remaining 4 core loci;

       3.	 the DNA analyst was presented by the investigator with a
           potential match for the forensic profile to a suspect; or

       4.	 the case was determined to be solved.

       We agree with the SFPD Laboratory that COfiler® could not be utilized
before it was validated or if there was insufficient DNA to test on all 13 loci.
However, we do not believe that the SFPD Laboratory’s last two reasons
listed above should preclude profiles from being searched at NDIS. We
determined that 19 of the 55 profiles could have been tested on all 13 core
loci because the DNA analysis took place after December 2002, when
COfiler® was instituted at the SFPD Laboratory, and there was sufficient DNA
                         19
to test on 13 core loci.

       Our concern is that by purposefully analyzing and uploading to NDIS
forensic profiles that were analyzed on only 9 core loci when there was the
possibility to analyze profiles on 13 core loci, the SFPD Laboratory was
precluding other laboratories in other states from being able to search SFPD
Laboratory’s forensic profiles for possible matches. Therefore, we believe
that the SFPD Laboratory was not fully participating in NDIS, as it was not
fully adhering to the NDIS DNA Data Acceptance Standards, which require
that analysis on all 13 core loci be attempted for forensic unknown profiles.
We asked the CODIS Administrator about this issue and she stated that
2 years ago, the SFPD Laboratory had begun efforts to perform additional
testing on samples that had only been tested on 9 core loci using Profiler
Plus. However, 2 months after the effort began, the Criminalist assigned to
this project resigned and the project was stalled. The CODIS Administrator
stated that this project will be restarted and the SFPD Laboratory plans to
conduct testing using COfiler® for those samples that had previously been
analyzed only on nine core loci in order to obtain results for the additional

       19
         This total of 19 profiles does not include the 6 profiles that we determined to be
unallowable during the course of our review.


                                           - 22 ­
four core loci and upload complete profiles into NDIS. As of July 2011, the
CODIS Administrator could not provide a definite date for when the project
will be restarted, but instead gave an estimated timeframe of 6 to 12
months from July 2011, which includes the time it will take to acquire and
train new personnel.

Conclusion

      Based on our testing of 100 sample forensic profiles that the SFPD
Laboratory uploaded to NDIS, we found 93 profiles were complete, accurate,
and allowable for inclusion in NDIS. However, we also identified seven
forensic profiles that were not suitable for upload to NDIS. The SFPD
Laboratory took corrective action on all seven profiles and removed them
from NDIS. We make no recommendations concerning the suitability of
SFPD Laboratory’s forensic DNA profiles that are in CODIS.




                                   - 23 ­
                                                                         APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from January 2009 through
December 2010. The objectives of the audit were to determine if the:
(1) SFPD Laboratory was in compliance with the NDIS participation
requirements; (2) SFPD Laboratory was in compliance with the QAS issued
by the FBI; and (3) SFPD Laboratory’s forensic DNA profiles in CODIS
databases were complete, accurate, and allowable for inclusion in NDIS. To
accomplish the objectives of the audit, we:

       •	 Examined internal and external SFPD Laboratory QAS review reports
          and supporting documentation for corrective action taken, if any, to
          determine whether: (a) the SFPD Laboratory complied with the QAS,
          (b) repeat findings were identified, and (c) recommendations were
          adequately resolved.20

            In accordance with the QAS, the internal and external laboratory
            review procedures are to address, at a minimum, a laboratory’s
            quality assurance program, organization and management, personnel
            qualifications, facilities, evidence control, validation of methods and
            procedures, analytical procedures, calibration and maintenance of
            instruments and equipment, proficiency testing of analysts, corrective
            action for discrepancies and errors, review of case files, reports,
            safety, and previous audits. The QAS require that internal and
            external reviews be performed by personnel who have successfully
            completed the FBI’s training course for conducting such reviews.


       20
           The QAS requires that laboratories undergo annual audits, which every other year
must be performed by an external agency that performs DNA identification analysis and is
independent of the laboratory being reviewed. The QAS does not require these audits to be
performed in accordance with the Government Auditing Standards (GAS) and they are not
performed by the Department of Justice Office of the Inspector General. Therefore, we
refer to the QAS audits as either internal or external laboratory reviews, as applicable, to
avoid confusion with our audits that are conducted in accordance with GAS.


                                          - 24 ­
            As permitted by GAS 7.42 (2007 revision), we generally relied on
            the results of the SFPD Laboratory’s external laboratory review to
            determine if the SFPD Laboratory complied with the QAS. 21 In
            order to rely on the work of non-auditors, GAS requires that we
            perform procedures to obtain sufficient evidence that the work can
            be relied upon. Therefore, we: (1) obtained evidence concerning
            the qualifications and independence of the individuals who
            conducted the review and (2) determined that the scope, quality,
            and timing of the audit work performed was adequate for reliance in
            the context of the current audit objectives by reviewing the
            evaluation procedure guide and resultant findings to understand the
            methods and significant assumptions used by the individuals
            conducting the reviews. Based on this work, we determined that
            we could rely on the results of the SFPD Laboratory’s external
            laboratory review.

       •	 Interviewed SFPD Laboratory officials to identify management
          controls, SFPD Laboratory operational policies and procedures, SFPD
          Laboratory certifications or accreditations, and analytical information
          related to DNA profiles.

       •	 Toured the SFPD Laboratory to observe facility security measures as
          well as the procedures and controls related to the receipt, processing,
          analyzing, and storage of forensic evidence and convicted offender
          DNA samples.

       •	 Reviewed the SFPD Laboratory’s written policies and procedures
          related to conducting internal reviews, resolving review findings,
          expunging DNA profiles from NDIS, and resolving matches among
          DNA profiles in NDIS.

       •	 Reviewed supporting documentation for five matches to determine
          whether they were resolved in a timely manner. The SFPD
          Laboratory provided the universe of 23 matches as of January 10,
          2011. The sample was judgmentally selected to include both case-
          to-case and case-to-offender matches. This non-statistical sample
          does not allow projection of the test results to all matches.



       21
           We also considered the results of the SFPD Laboratory’s internal laboratory
review, but could not rely on it because it was not performed by personnel independent of
the SFPD Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
SFPD Laboratory’s compliance with specific QAS that have a substantial effect on the
integrity of the DNA profiles uploaded to NDIS.


                                          - 25 ­
      •	 Reviewed supporting documentation to determine whether the SFPD
         Laboratory provided adequate vendor oversight.

      •	 Reviewed the case files for selected forensic DNA profiles to
         determine if the profiles were developed in accordance with the
         Forensic QAS and were complete, accurate, and allowable for
         inclusion in NDIS.

         Working in conjunction with the contractor used by the FBI to
         maintain NDIS and the CODIS software, we obtained an electronic
         file identifying the 935 STR forensic profiles the SFPD Laboratory
         had uploaded to NDIS as of December 22, 2010. We limited our
         review to a sample of 100 profiles. This sample size was determined
         judgmentally because preliminary audit work determined that risk
         was not unacceptably high.

      •	 Using the judgmentally-determined sample size, we randomly
         selected a representative sample of labels associated with specific
         profiles in our universe to reduce the effect of any patterns in the list
         of profiles provided to us. However, since the sample size was
         judgmentally determined, the results obtained from testing this
         limited sample of profiles may not be projected to the universe of
         profiles from which the sample was selected.

      The objectives of our audit concerned the SFPD Laboratory's
compliance with required standards and the related internal controls.
Accordingly, we did not attach a separate statement on compliance with laws
and regulations or a statement on internal controls to this report. See
Appendix II for detailed information on our audit criteria.

       After we issued our draft report to the FBI and the SFPD Laboratory,
we learned from local news reports that the SFPD had recently conducted an
internal investigation of its CODIS Administrator. In addition, the same local
media reports also stated that the San Francisco District Attorney’s Office
had provided in writing to the SFPD its concerns related to the SFPD’s DNA
Laboratory. The SFPD did not inform us of these two matters during our
fieldwork. Therefore, upon learning of these issues, we requested that the
SFPD provide the following for our review: (1) the results of its internal
investigation pertaining to its CODIS Administrator, and (2) the San
Francisco District Attorney’s Office written concerns with the SFPD’s DNA
Laboratory. Based on our review of these matters, we made no changes to
the findings in our audit report.




                                     - 26 ­
                                                                       APPENDIX II

                                AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the QAS. However, we did not test for compliance with
elements that were not applicable to the SFPD Laboratory. In addition, we
established standards to test the completeness and accuracy of DNA profiles
as well as the timely notification of DNA profile matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

       •	   DNA Data Acceptance Standards
       •	   DNA Data Accepted at NDIS
       •	   QAS Reviews
       •	   NDIS DNA Autosearches
       •	   Confirm an Interstate Candidate Match
       •	   General Responsibilities
       •	   Initiate and Maintain a Laboratory’s Participation in NDIS
       •	   Security Requirements
       •	   CODIS Users
       •	   CODIS Administrator Responsibilities
       •	   Access to, and Disclosure of, DNA Records and Samples
       •	   Upload of DNA Records
       •	   Expunge a DNA Record
       •	   The FBI Flowchart: A Guide to Determining What is Allowable in
            the Forensic Index at NDIS 22




       22
          The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
CODIS Administrator’s Handbook and has been provided to laboratories in referendums
such as CODIS conferences.


                                          - 27 ­
Quality Assurance Standards

      The FBI issued two sets of QAS: QAS for Forensic DNA Testing
Laboratories, effective July 1, 2009, (Forensic QAS); and QAS for DNA
Databasing Laboratories, effective July 1, 2009, (Offender QAS). The
Forensic QAS and the Offender QAS describe the quality assurance
requirements that the Laboratory should follow to ensure the quality and
integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

      •	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
         have a facility that is designed to ensure the integrity of the
         analyses and the evidence.

      •	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
         follow a documented evidence control system to ensure the integrity
         of physical evidence. Where possible, the laboratory shall retain or
         return a portion of the evidence sample or extract.

      •	 Sample Control (Offender QAS 7.1): The laboratory shall have and
         follow a documented sample inventory control system to ensure the
         integrity of database and known samples.

      •	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
         laboratory shall monitor the analytical procedures using [appropriate]
         controls and standards.

      •	 Review (Forensic QAS 12.1): The laboratory shall conduct
         administrative and technical reviews of all case files and reports to
         ensure conclusions and supporting data are reasonable and within
         the constraints of scientific knowledge.

         (Offender QAS Standard 12.1): The laboratory shall have and follow
         written procedures for reviewing DNA records and DNA database
         information, including the resolution of database matches.




                                     - 28 ­
     •	 [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
        laboratory shall be audited annually in accordance with [the QAS].
        The annual audits shall occur every calendar year and shall be at
        least 6 months and no more than 18 months apart. At least once
        every 2 years, an external audit shall be conducted by an audit team
        comprised of qualified auditors from a second agency(ies) and having
        at least one team member who is or has been previously qualified in
        the laboratory’s current DNA technologies and platform.

     •	 Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A
        vendor laboratory performing forensic and database DNA analysis
        shall comply with these Standards and the accreditation requirements
        of federal law.

        Forensic QAS 17.4: An NDIS participating laboratory shall have and
        follow a procedure to verify the integrity of the DNA data received
        through the performance of the technical review of DNA data from a
        vendor laboratory.

        Offender QAS Standard 17.4: An NDIS participating laboratory shall
        have, follow and document appropriate quality assurance procedures
        to verify the integrity of the data received from the vendor laboratory
        including, but not limited to, the following: Random reanalysis of
        database, known or casework reference samples; Inclusion of QC
        samples; Performance of an on-site visit by an NDIS participating
        laboratory or multi-laboratory system outsourcing DNA sample(s) to
        a vendor laboratory or accepting ownership of DNA data from a
        vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

     •	 Completeness of DNA Profiles: A profile must include each value
        returned at each locus for which the analyst obtained results. Our
        rationale for this standard is that the probability of a false match
        among DNA profiles is reduced as the number of loci included in a
        profile increases. A false match would require the unnecessary use
        of laboratory resources to refute the match.

     •	 Accuracy of DNA Profiles: The values at each locus of a profile
        must match those identified during analysis. Our rationale for this


                                   - 29 ­
  standard is that inaccurate profiles may: (1) preclude DNA profiles
  from being matched and, therefore, the potential to link convicted
  offenders to a crime or to link previously unrelated crimes to each
  other may be lost; or (2) result in a false match that would require
  the unnecessary use of laboratory resources to refute the match.

•	 Timely Notification of Law Enforcement When DNA Profile Matches
   Occur in NDIS: Laboratories should notify law enforcement
   personnel of NDIS matches within 2 weeks of the match
   confirmation date, unless there are extenuating circumstances. Our
   rationale for this standard is that untimely notification of law
   enforcement personnel may result in the suspected perpetrator
   committing additional, and possibly more egregious, crimes if the
   individual is not deceased or already incarcerated for the
   commission of other crimes.




                            - 30 ­
                                                                                                  APPENDIX III


                               AUDITEE RESPONSE




                                         _ .-
                                           _IIU'AA,"'"
                                          ----,
                                    ..... ,.
                                             .. _-."" .......
                          CITY ANO COUNTY OF SAN FRANCISCO

                                                      .....-
                                                                                                  •
                                                                                                  _.-
~16.:O11




')ovid J . 0...:111:.
R ~ A . ..;,~
Son F....ru.:..   R<P<-I AudiT omo.
Off.,. or .... Inspo<iOI !'.lonoonI
\)$. D..  _ o.c.'of",;o.
1200  110)"""I),h •• s..;10201
Sao IItuno, CA _



 no. orr..,. of_          1_
                      (IcncrwI ........                       MI.".__
                                                     ofllo<lo-...,.,.. .."*>I ..
_ _ of .... ~ ..... ·.DSA U...... - . . _ .. IcII .... COOIS_ Tho
..,... -.rocd.-,,_.".... : . ...
    Ttotl!no "         • •' 1 o _ ... COOIS_beL... pooc._              I I00I10)<
.... Crinoo Ia. no. - - . _ •• ~ J-t.I_"'SI'''/J' • _)l.JiJ_""""""
____
NnlSpo
                        .,..DIS~

                I .. _ _ ... NPIlI"","_
                                                ...........
""' , .... 11//1; CfJOIS_ .....Nlb" ...... _JW _ _ ,., IIoo:d_ .. _<#-
                                             t I _ ,. _ . - . w y _.· Ttot
                                       .d • .. 11 _ . _ 1 " , . ; ,,.. ...
_      I"" _ _ nor SfI'lJ                      .,......,.1)0;, _. _ _ _
.............. """".ofohrirCOOlS_ ..... _ _ ....... ..-. .... _
                                                                 .,.!lcd
                                ~
                                     _
5)        .."""-boo: _       12. II> beL ....... CQDI5 _ . . .     ___
''''''_Tholooo<t... _ " , . . . , . " , _ .. , , _
 TtotNOIS ,"oc I .. _ _ ...
_ _ ThoCOOlS _ ... _
                                                   _-.i00i10 .. ___ .... __ ,...
                       ....... " , _ •• _pIoyoicoI _ _ _
"",N!>IS ~ l ... _ • . ' .Sf", r_DGovtloil_ .. IOOGB.
_,...,...... ___ .... 1.*00_, ..... _,..-_
Il/' llO3 U,,"_ ...... _ _ 0", .. Ioo<k ....... _ Il00. _.," .. _ ••

~             ... ... q   ..... _        • • SO~_ , _"Cr .                 _   ........ _
... . ,. OIO.qoaotorty-. ....... o f _ ) AIlDSA""", ... ,1                 COOIS     t   •   ..

• Tho 10<&1 ....... 1ft .... . _....,. _ ..... _ ....... l100 COlliS I . I _ will
............. canrid&eo ... _            ..... _        . otT................ oo._h". .......
  l1oo_ ,.-.",*.......... ...- ..          cnm. ..... 0<WriIy_ The ""';"'"
_ . '~Iy. ... ~ _ rlw !JJ'r/J ~.JiJ _ ........ *> ,.. F""",it'
QA!J,'" ....,................... ,.. ~ ... ". -.olW _ _                           "'d_'"




                                                     - 31 - 

prevent access hy unauthorized personnel. " During the audit, the HV AC system
experienced a malfunction in the Fireanns Unit which resulted in an inordinate and
constant supply of hot air channeled into tbe office space. In order to safeguard
instrumentation and evidence that may have been damaged by the extreme temperamre,
unit superv isor John Sanchez opened the unit 's two internal doors to allow the heat to
vent out. This also all eviated the intolerable conditions for unit members allowi ng work
to continue. Sanchez contacted the building engi neer who responded and repaired the
malfunctioning equipmen t.

    During thi s event, all members of the Firearms Uni t were present and conducting case
work. The group included two sworn members of the Sf PD. Sanchez and the members of
the Fireanns Unit remained in the unit for the duration of thi s incident. Security of the
Firearms and DNA Units was never com promised or breeched. All interior and exterior
entrance/exit points remained operational and protected by security measures. No other
individuals, other than those identified here~ entered the unit.

    Secondly, the DIG auditors expressed concern regarding access to the trainjng room
located on the second noar of Building 606. The Crime Lab Manager reviews all law
enforcement requests for the lise oflhe training room. Although the room is outside both
administrative and lab space of the Crime Lab, the Crime Lab Manager has infonncd all
training coordinators of thc Crime Lab's securi ty policy. The Crime Lab Manager advises
all Cri me Lab personnel in advance of scheduled training events. The Crime Lab
Manager meets with all presenters and conducts additional security inspections on the
dates of such events to ensure adherence to Crime Lab securi ty measures. Although
attendees are sworn law enforcement officers, their access to Crime Lab ad mini strative or
lab space is prevented by security inspections, electroni c key card devices and
combinati on locks.

   The San Francisco Poli ce Department Crime Lab wi ll work with the FBI based their
review.



Sincerely,




Lt. Daniel Perea
Crime Lab Manager
San Francisco Police Department Crime La boratory




                                            - 32 - 

                                                                                        APPENDIX IV


         DEPARTMENT OF JUSTICE RESPONSE





                                                    U.S. Depntmut of .JU ltice


                                                    Federal Bureau of Invest;s.,;on


                                                    Wasbi_. D. C. 205)HIOOI

                                                    September 26. 2011




David J. Gaschke
Regional Audit Manager
San Francisco Regional Audit Office
Office of the Inspector General    •
1200 Bayhlll Drive, Suite 20 1
San Bnmo, CA 94066

Dear Mr. Gaschke:

               YoW" memorandum to Director Mueller forwarding the draft report of the audit
conducted at the San Francisco Police Department Crime Laboratory, San Francisco, California
(Laboratory) has been referred to me-for response.

               YoW" draft report contained two recommendations relating to the Laboratory's
compl iance with the FBI's Memorandum of Understanding and Quality Assurance Standardsfor
DNA Testing Laboratories. The CaDIS Unit has reviewed yoW" draft report and offers the
followin8 comments.

              With respect to recommendation one relating to routine perfonnance and
maintenance of coors server back-ups, the Laboratory utilizes a .roftware program. to back-up
its COOlS server daily and those back-up data cartridges are now stored at a secure, off-site
location monthly. The CaDIS Unit is satisfied that the Laboratory is securely storing its server
back-ups more routinely. The COOlS Unit supports closure of thIS recommendation.
                With respect 10 recommendation two relating to lUlauthorized access, the FBI has
recommended that the Laboratory post a sign on the intemal doors to the DNA laboratory
indicating that they must remain closed and not propped opened. The Laboratory is considering
the FBI's recommendation.

                Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact Jennifer C. Luttman. C hief of the COOlS Unit, at (703) 632-8315.

                                                     Sincerely,

                                                     ~~
                                                     Alice R. lsen~, Ph.D
                                                       0
                                                     Section Chief
                                                     Biometrics Analysis Section
                                                     FBI Laboratory




                                              - 33 - 

                                                             APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the SFPD Laboratory
and the FBI. Individual responses from the SFPD Laboratory and the FBI are
incorporated in Appendices III and IV, respectively. The following provides
the OIG analysis of the responses and summary of actions necessary to
close the report.

Recommendation Number:

1.	 Resolved. In its response to our draft audit report, the SFPD
    Laboratory stated that its Forensic Biology Unit backs up its CODIS
    server and associated data on a daily basis using a software program,
    called Symantec Backup. This procedure and the SFPD Laboratory’s use
    of a back-up software was not communicated to us during our audit
    fieldwork or at our exit conference. During our audit, the CODIS
    Administrator stated that the SFPD Laboratory was uploading its
    forensic profiles to California’s SDIS laboratory on a weekly basis and
    SFPD Laboratory officials regarded these weekly uploads as being
    similar to the SFPD Laboratory locally backing up its CODIS data. As we
    stated in our report, the Laboratory’s weekly uploads to California’s
    SDIS Laboratory do not constitute the required weekly local back-ups of
    the SFPD Laboratory’s CODIS server. After we obtained the SFPD’s
    response to our report, we contacted the SFPD Laboratory to determine
    whether the daily back-up procedures were new or whether they were in
    place during our audit. We were told by the CODIS Administrator that
    the daily back-ups and use of a software program were in place during
    our audit. We added clarifications to our report to acknowledge the
    SFPD Laboratory’s new statements pertaining to its back-up procedures.

    In addition, the SFPD Laboratory’s response stated that its Forensic
    Biology Unit physically backs up data to cartridges and stores those
    cartridges at an alternate secure physical location. The SFPD
    Laboratory acknowledged that it was moving these data cartridges to an
    offsite secure location on a quarterly basis instead of on a monthly
    basis, as required by FBI policy. However, the SFPD Laboratory stated
    in its response that the CODIS Administrator will ensure data cartridges
    are stored at a secure, offsite location on a monthly basis, which is more
    frequent than its quarterly schedule that we identified during our audit.


                                   - 34 ­
     The FBI stated that its CODIS Unit is satisfied that the SFPD Laboratory
     is securely storing its server back-ups on a more routine basis as
     indicated in the SFPD Laboratory’s response, and it supports closure of
     this recommendation. This recommendation can be closed when the
     SFPD Laboratory provides us with evidence that it has formally adopted
     its daily and monthly CODIS server back-up procedures as written
     policy.

2.	 Resolved. In its response to our draft audit report, the SFPD
    Laboratory provided additional details of the circumstances that caused
    multiple doors to be propped open during our tour of the SFPD
    Laboratory. Specifically, the SFPD Laboratory’s HVAC system
    experienced a malfunction that resulted in an excessive supply of hot air
    that needed to be dissipated. The SFPD Laboratory’s Firearms Unit
    Supervisor elected to open the two internal doors to disperse the heat
    and stabilize the temperature for staff members that were working in
    the Unit. Also, the building engineer was called to repair the
    malfunctioning equipment. The SFPD Laboratory added that during this
    event, all interior and exterior points of entry and exit were protected by
    security measures, the Firearms Unit staff was present and conducting
    casework in the area, and that security of the Firearms and DNA
    Analysis Units were not compromised. As stated in our report, SFPD
    Laboratory management explained to us when we were on-site that the
    series of propped open doors was an infrequent occurrence.

     Although we understand that the SFPD Laboratory had experienced a
     temperature issue, we continue to have concerns related to the security
     vulnerabilities caused by multiple doors being propped open because
     this appears to have been an issue in the past. According to the
     September 2010 ASCLD/LAB Interim Inspection Report, the SFPD
     Quality Assurance Manager stated that she had observed propped open
     doors to the building and laboratory prior to November 2009 when the
     Laboratory’s proximity card access system was installed. 23 The
     ASCLD/LAB inspectors did not observe propped doors and stated in the
     September 2010 report that the Laboratory was meeting the security
     requirements of ASCLD/LAB. However, due to vulnerabilities associated
     with propped doors, even if it occurs on an infrequent basis, and in

       23
          According to the September 2010 ASCLD/LAB Interim Inspection Report,
ASCLD/LAB inspectors visited the SFPD Laboratory in August 2010 to investigate concerns
about the Laboratory, including allegations of possible unrestricted access that were raised
in an anonymous letter.

       ASCLD/LAB, Interim Inspection Report San Francisco Police Department
Criminalistics Laboratory (September 2010), 1-3.


                                           - 35 ­
consideration of these prior issues, we believe it is appropriate for the
SFPD Laboratory to remedy the security issue found during our review.

The SFPD Laboratory also provided a response to our concern of
possible unauthorized access by individuals visiting the training room
located on the second floor of its facility. The SFPD Laboratory stated
that the Crime Laboratory Manager reviews all law enforcement
requests for the use of the training room and informs all training
coordinators of the Laboratory’s security policy. The SFPD Laboratory
Manager advises all SFPD Laboratory personnel of upcoming training
events, meets with training facilitators in advance of scheduled training
events, and conducts additional security inspections on the dates of
such events to ensure adherence to security policies and procedures.
The SFPD Laboratory clarified that attendees are sworn law enforcement
officers, but their access to the SFPD Laboratory’s administrative or
laboratory space is prevented by security inspections, electronic key
card devices, and combination locks. We recognize that the SFPD
Laboratory has a protocol in place to address security matters that may
arise when training courses are held, and we do not feel that trainees’
access to the training room on the second floor is an issue. Rather, we
are concerned that given our observation of propped open doors to the
SFPD Laboratory’s DNA Analysis Unit, there is a potential for persons
not affiliated with the Laboratory to enter this space when no Laboratory
personnel are present to prevent unauthorized access.

The FBI suggested in its response that the SFPD Laboratory post a sign
on the internal doors to its DNA Analysis Unit indicating that they must
remain closed and not be propped open. This recommendation can be
closed when the SFPD Laboratory provides evidence that it has
enhanced security measures against unauthorized access to its DNA
Analysis Unit.




                               - 36 ­
